     employees. The subject was found to have abused the ETASIITAS system by having other
     employees sign her in and out. In addition, we found that the subject abused the Metro subsidy
     program by falsely certifying that she was using public transportation wheniin fact she was using a
     privately owned vehicle. She was issued a verbal reprimand.                1
     Accordingly this case is closed.


                                                                                 i


                                                                                I


                                                                                I
                                                                                II




                                                                                I
                                                                                lL
               Prepared by:                     Cleared by:

              Agent:          Attorney:       Supervisor:     AIGI
  Name:

                                                                                I



Signature &
   date:                                                                        1
                                         NATIONAL SCIENCE FOUNDATICJL\
                                           WASHINGTON, D.C. 20550




              Office of
          Inspector General




                 DATE:            September 29, 1995
                                                   Special Agent
        -..    .......   ......                        ...........--..-....   .- .-..............   .
                                                                                                    -
                                                                                                    a        .............

                   VIA :                         Agent-in-Charge                                        '!
                                  ~nvestiws
                                          Section
              SUBJECT:            Allegation of Abuse of                                      -         I
                                                                                                        (I at NSF


                     TO:          Case No. I94050019

          On May 6, 1994, we received an alle ation from Ija confidential
          source concerning abuse of t h e d system. According to the
          complainant, Ms.               and M4
                                              -s/.            were abusing
          the system by si                 for each other and asking other
          employees to do the same. This abuse was witnessed by several
          employees in the OCE division.
         We obtained sign in and out times for Ms.        and MS.-
         and interviewed several employees in the                  including
         the subjects.     We determined that both Ms.
         consistently asked several employees to sign in an out for her.
                                                                         had                            7
         During our investigation we                         th Ms -
                                                                   .      and
.   s    M            were abusing                             by using a POV
         for trans~ortation to a                               esult of our
         investiga<ion,              was given a verbal warning and was
         required to                   and unused Metro cards. Ms.
         was issued a an Official Reprimand dated May 23, 1995.
                                             that neither MS .I      nor Ms.
                                                                                                                             %
                                                                                                                             ?!!
                                            in the Metro Subsidy Program.
                                            gations is not warranted at this
         time.                                               ,

         This case is closed.
